                            Office of the Inspector General
                   Corporation for National and Community Service




                          Pre-Audit Survey Report of the
                 Wisconsin National and Community Service Board


                          OIG Audit Report Number 00-29
                                December 8,1999




                                        Prepared by:
                                  Urbach Kahn & Werlin, PC
                                  1030 Fifteenth Street, N.W.
                                   Washington, D.C. 20005

                              Under CNS 01G MOU # 98-046-5003
                                 With the Department of Labor
                                    Contract # 5-9-G-8-0024
                                    Task Order B9G9X 103


This report was issued to Corporation management on June 23,2000. Under the laws
and regulations governing audit follow up, the Corporation must make final
management decisions on the report's findings and recommendations no later than
December 20,2000, and complete its corrective actions by June 23,2001. Consequently,
the reported findings do not necessarily represent the final resolution of the issues
presented.
                                 Office of Inspector General                              CORPORATION
                       Corporation for National and Community Sewice                      FOR NATIONAL

                                  Pre-Audit Survey of the
                      Wisconsin National and Community Sewice Board
                              OIG Audit Report Number 00-29


Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two-thirds of its AmeriCorps StateJNational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although
the Corporation began state commission administrative reviews in 1999, the Corporation,
historically, has not carried out a comprehensive, risk-based program for grantee financial and
programmatic oversight and monitoring. It is also unlikely that AmeriCorps programs are subject
to compliance testing as part of state-wide audits under the Single Audit Act due to their size relative
to other state programs.

Therefore, CNS OIG has initiated a series of pre-audit surveys intended to provide basic information
on the state commissions' operations and funding. The surveys are designed to provide a
preliminary assessment of the commissions' pre-award and grant selection procedures, fiscal
administration, monitoring of subgrantees (including AmeriCorps Member activities and service
hour reporting), and the use of training and technical assistance funds. For each survey, we will
issue a report to the state commission and to the Corporation communicating the results and making
recommendations for improvement, as appropriate.

We engaged Urbach Kahn & Werlin PC toperform the pre-audit survey of the WisconsinNational
and Community Service Board. UKW concludes that the Board appears to have an open and
competitiveprocess to select national service subgrantees, appears to have an adequateprocess for
the fiscal administration of grants, and has adequate controls over the provision of training and
technical assistance. However, UKW also concludes that the Board does not have adequate controls
in place to evaluate and monitor subgrantees. The report includes recommendations for
improvements in the Board's subgrantee selection, grants administrationand monitoringprocesses.


                                                                                      Inspector General
                                                                                      1201 New York Avenue, NW
                                                                                      Washington, DC 20525
 The report also includes recommendationsfor follow-up on corrective actions by the Corporation
for National Service and revision of the Corporation 'sguidance on subgrantee monitoring to speciJL
 minimum procedures to be performed and minimum documentation requirements. As a result of
 their work, UKW recommends a full-scopeJinancia1 audit of CNSfunding to the Boardfiom 1995
 to the present.

We have reviewed the report and work papers supporting its conclusions, and we agree with the
findings and recommendations presented. We provided a draft of this report to the Board and to the
Corporation. In it's response (Appendix C), the Board disagreed with many of the findings and in
some cases provided additional documentation in support of its position. UKW's evaluation of the
Wisconsin Board's response is included as Appendix E.

The Corporation's response (Appendix D) indicates that the Corporation plans to request semi-
annual reports from the Board on its actions to correct the conditions reported and to follow-up on
the corrective actions when the Board is reviewed during the Corporation's administrative review
process.
                                    Office of the Inspector General
                            Corporation for National and Community Service

                                    Pre-Audit Survey Report of the
                           Wisconsin National and Community Service Board


                                                     Table of Contents


Pre-Audit Survey Report

  Results in Brief ...........................................................................................................................
                                                                                                                                          1

  Background .................................................................................................................................2

  Overview of the Board ...............................................................................................................
                                                                                                                                     3

  Objectives. Scope and Methodology ..........................................................................................4

  Findings and Recommendations ................................................................................................. 5


Appendices

  Appendix A .Wisconsin Board Funding .1995 through 1999 ............................................1 2

  Appendix B .Detailed Engagement Objectives and Methodology .........................................17

  Appendix C .Wisconsin Board Response ................................................................................20

  Appendix D .Corporation Response ........................................................................................29

  Appendix E - UKW's Evaluation of the Wisconsin Board's Response....................................30
UK    Urbach Kahn & Werlin PC
6aXI CERTIFIED PUBLIC ACCOUNTANTS
        Inspector General
        Corporation for National and Community Service

        At your request, Urbach Kahn and Werlin PC performed a pre-audit survey of the Wisconsin
        National and Community Service Board. The primary purpose of this survey was to provide a
        preliminary assessment o f

               the adequacy of the pre-award selection process;

               the fiscal procedures at the Board;

               the effectiveness of monitoring Wisconsin State subgrantees, including ArneriCorps
               Member activities and service hours; and

               the controls over the provision of training and technical assistance.

        We were also asked to report on the recommended scope of additional audit procedures to be
        performed at the Wisconsin Board.

        RESULTS IN BRIEF

        Based on the results of the limited procedures performed, we have made the following
        preliminary assessments regarding the Board's systems for administering grants received
        from the Corporation.

           The Board appears to have an open and competitive process to select national service
           subgrantees, and related systems and controls appear to be hnctioning as designed.
           However, we identified an area of improvement related to the lack of assessment of
           subgrantee applicants' financial systems during the selection process.

           The Board appears to have an adequate process in place for the fiscal administration of
           grants. However, we identified an area of improvement related to the review of Financial
           Status Reports and recalculation of matching amounts.

           The Board does not have adequate controls in place to evaluate and monitor subgrantees.

           The Board appears to have adequate controls in place to provide reasonable assurance
           that training and technical assistance are made available and provided to subgrantees.




                                                                -1-
                      1030 Fifteenth Street NW, Washingon, DC 20005 (202) 296-2020 FAX (202) 223-8488
                                    An Independent Member of Urbach Hacker Young Inremar~onal
Based on our preliminary assessments, we recommend that the OIG perform a full-scope
financial audit of the h n d s awarded to the Wisconsin Board for 1995 through the current
program year. Procedures should also include verification of reported Member service hours
and matching amounts by subgrantees. In addition, we recommend that the Corporation
follow up with the Board to determine that appropriate corrective actions are put in place to
address the conditions reported herein and that the Corporation consider these conditions in
its oversight and monitoring of the Wisconsin Board.

BACKGROUND

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative
agreements to State Commissions, nonprofit entities, and tribes and territories to assist in the
creation of full and part time national and community service programs. Through these
grantees, AmeriCorps Members perform service to meet the educational, human,
environmental, and public safety needs throughout the nation, especially addressing those
needs related to poverty. In return for this service, eligible Members may receive a living
allowance and post-service educational benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps
State/National funds to State Commissions. State Commissions are required to include
between 15 and 25 voting members. Each Commission has a responsibility to develop and
communicate a vision and ethic of service throughout the State.

The State Commissions provide AmeriCorps funding to approved subgrantees for service
programs within their states and are responsible for monitoring these subgrantees'
compliance with grant requirements. The State Commissions are also responsible for
providing training and technical assistance to ArneriCorps State and National Direct
programs and to the broader network of service programs throughout the state. The
Commissions are prohibited from directly operating national service programs.

The Corporation's regulations describe standards for financial management systems that must
be maintained by State Commissions. The standards require, in part, that the State
Commissions maintain internal controls that provide for accurate, current, and complete
disclosure of the financial and programmatic results of financially assisted activities, as well
as provide effective control and accountability for all grant and subgrant cash, real and
personal property, and other assets.
OVER VIEW OF THE WISCONSIN BOARD

The Wisconsin National and Community Service Board is headquartered in Madison,
Wisconsin. The Board has been providing national and community service programs in its
current form since 1995. The Board reported that it received fbnding from the Corporation
totaling $1,472,668 in 1995; $2,065,958 in 1996; $1,664,631 in 1997; $1,873,423 in 1998,
and $2,194,934 in 1999. Additional information on the Board's funding is presented in
Appendix A.

The Board currently has five full-time staff consisting of an Executive Director, three
Program Officers, and one Administrative staff person. The Board's ArneriCorps Program
Officer monitors subgrantee program and fiscal activities.

During 1998, the Board established a contract with the Cooperative Educational Service
Agency to administer and evaluate Learn and Serve subgrantees. There are 12 CESA districts
located throughout the state of Wisconsin and the Commission has selected CESAs No. 2 &
No. 4 to act as liaisons between subgrantees and the Commission.

As part of the State of Wisconsin, the Board is included in the state's annual OMB Circular
A-133 audit. There have been no questioned costs or findings identified at the Board to date.
However, it was not considered or tested as a major program.


                  Total Amount of                                   Number of
                    Corporation                                 Subgrantees Subject
                       Funds              Number of               To A-133 Audit
Program Year        Subgranted           Subgrantees              Requirements
OBJECTIVES, SCOPE AND METHODOLOGY

We were engaged by the Office of the Inspector General for the Corporation for National and
Community Service to provide a preliminary assessment of the systems and procedures in
place at the Board for administering grants and for monitoring the fiscal activity of
subgrantees.

The primary purpose of this survey was to provide a preliminary assessment of:

       the adequacy of the pre-award selection process;

       the fiscal procedures at the Board;

       the effectiveness of monitoring of Wisconsin State subgrantees, including
       AmeriCorps Member activities and service hours; and

       the controls over the provision of training and technical assistance.

We were also asked to report on the recommended scope of additional audit procedures to be
performed at the Wisconsin Board.

Our survey included the following procedures:

       reviewing Corporation laws, regulations, grant provisions, the Reference Manual for
       Commission Executive Directors and Members, and other information to gain an
       understanding of legal, statutory and programmatic requirements;

       reviewing OMB Circular A-133 audit reports and current program year grant
       agreements for the Board;

       obtaining information from Board management to complete flowcharts documenting
       the hierarchy of Corporation grant funding for program years 1995 through 1999; and

       performing the procedures detailed in Appendix B, in connection with the
       Commission's internal controls, selection of subgrantees, administration of grant
       fbnds, evaluation and monitoring of grants, and technical assistance process.

As part of the procedures performed, we documented and tested certain internal controls in
place at the Board using inquiry, observation, and examination of a sample of source
documents. Finally, we summarized our observations and developed the findings and
recommendations presented in this report. We discussed all findings with Board management
during an exit conference on December 8, 1999.
     Our procedures were performed in accordance with Government Auditing Standards issued
     by the Comptroller General of the United States. We were not engaged to, and did not,
     perform an audit of any financial statements, and the procedures described above are not
     sufficient to express an opinion on the controls at the Board or its compliance with applicable
     laws, regulations, contracts and grants. Accordingly, we do not express an opinion on any
     such financial statements or on the Board's controls and compliance. Had we performed
     additional procedures, other matters might have come to our attention that would have been
     reported to you.

     We provided a draft of this report to the Wisconsin Board and the Corporation for National
     and Community Service. The Board's and the Corporation's responses to our findings and
     recommendations are included as Appendix C and Appendix D, respectively.

     In its response, the Board disagrees with a number of the report's findings and conclusions
     and provided UKW with additional documentation to resolve certain issues raised in the draft
     report. In order to address certain concerns expressed in the Board's response, we have
     revised certain Findings and Recommendations. UKW's detailed assessment of the response
     is included as Appendix E.

     FINDINGS AND RECOMMENDATIONS

     Selection of Subgrantees

     According to A Reference Manual for Commission Executive Directors and Members,
     Section 3.2, "Commissions are expected to develop a fair and impartial process for reviewing
     and selecting applicants for potential funding." The Wisconsin Commission has developed
     various procedures to comply with this requirement. The Commission advertises the
     availability of funds through many resources, including legal notices in the Wisconsin State
     Journal, press releases in the major papers as well as through direct mailings. A peer review
     panel of volunteers review grant applications with the aid of application scoresheets and
     provide feedback to Commission Board Members as to which subgrantees they believe are
     the best applicants.

     However, we have identified the following areas for improvement.

                    The Board did not maintain signed conflict of interest forms as
                                  required for renewal applicants.

     Section 3.6 of the Reference Manual for Commission Executive Directors and Members
     states "Commissions should strive to achieve the greatest objectivity and impartiality
     possible in the review and selection of grantees in the state." The section continues to state
     "As defined by the Act, a Commission member or review panel member is considered to
     have a conflict of interest if the member is currently, or was within one year of the
     submission of a grant application to the Commission: an officer, a director, a trustee, a full-
     time volunteer or an employee of an organization submitting a grant application to the State
     Commission."
UK                                                -5-
&W
Page 3-30 of Section 3.6 states "If a Commission member has a conflict of interest, the
member must recuse himself/herself from the Commission's administration of the grant
program, including such activities as any discussions or decisions by the Commission
regarding the provision of funds or education awards to any program or entity funded under
the same funding category. "




During our testing, we determined the Board does not require that peer reviewers sign
conflict of interest forms for renewal applicants.

Because the Board could not provide signed and dated conflict of interest statements related
to renewal applicants, we were unable to determine whether conflict of interest statements
were properly completed by all Board and peer review panel members during the grantee
selection process and whether the individual reviewer lacked a conflict of interest.

We recommend that the Board actively check for conflicts of interest and enforce current
policies and procedures requiring that signed and dated conflict of interest forms are
maintained for each grant applicant, including renewal applicants, on file in accordance with
Corporation requirements.

               Some documentation to support grant-making decisions was
                                       missing.

The Board was also unable to provide us with certain documentation to support the selection
process. Specifically, in a sample of six subgrantees (consisting of two new, two rejected and
two renewal applicants), we identified the following deficiencies:

       One instance where a rejection letter was not maintained by the Board; and

       Two instances where renewal packages did not include documentation supporting that
       site visits or progress reports were reviewed during the renewal process.

Therefore, we were unable to determine whether the Board followed Corporation guidelines.

We recommend that the Board maintain appropriate documentation to support the rejection
or renewal of subgrantee applicants.

             Lack of assessment of subgrantee applicants' Financial Systems
                              during the selection process

According to A Reference Manual for Commission Executive Directors and Members,
Section 4.2, Commissions are responsible for maintaining "appropriate financial management
systems to disburse funds and track Commission and program expenditures according to
legal and grant requirements." In order to comply with this requirement, the Commission
must be able to ensure that subgrantees have systems in place to accurately track
expenditures, since this information forms the basis of a majority of Commission expenditure
     During our testing, we determined that selection officials did not evaluate and document the
     adequacy of approved applicants' financial systems during the Board's subgrantee selection
     process. The grant application form provided by the Corporation does not specifically
     address the applicant's financial systems. In addition, Board selection procedures do not
     require Board personnel to request information from approved applicants related to their
     financial systems or to otherwise assess an applicant's financial system. As a result, grant
     funds may be provided to an organization that does not have financial systems in place to
     properly account for the Corporation funds received or to ensure compliance with related
     requirements.

     We recommend the Board evaluate and document the adequacy of approved applicants'
     financial systems during the selection process to ensure applicants have systems in place to
     properly account for grant funds and comply with related grant requirements.

     Administration of Grant Funds

     As part of the grant administration process, "Commissions must evaluate whether
     subgrantees comply with legal, reporting, financial management and grant requirements and
     ensure follow through on issues of non-compliance" (A Reference Manual for Commission
     Executive Directors and Members, Section 4.3). Based on the results of our testing, we
     identified the following areas for improvement related to the evaluation of subgrantee
     compliance with reporting and grant requirements.

                   Lack of evidence of Financial Status Report review, including
                                      matching recalculation

     Board procedures indicate that subgrantee Financial Status Reports are to be reviewed, and
     matching requirements, recalculated. However, no evidence exists to document that this
     review was performed. In addition, during our testing of 36 FSRs, we identified two
     instances where previously reported amounts were not carried forward properly.

     Moreover, the Board's current policies and procedures do not require personnel to compare
     the FSRs to the subgrantees' accounting records or other supporting documentation during
     site visits.

     Because of these conditions, errors on the FSRs may exist and remain undetected. Although
     subgrantees are on a reimbursement only basis, if subgrantee FSRs are not agreed to the
     subgrantees' accounting system, then there is an increased risk that subgrantees are
     incorrectly reporting amounts on their FSRs and the Board lacks the reasonable assurance
     that subgrantees are correctly reporting amounts on their FSRs.

     We recommend the Board adhere to its policies to review subgrantee FSRs, recalculate
     matching requirements and document the results of this review. In addition, the Board should
     implement site visit monitoring procedures that require the reconciliation of the subgrantees'
     FSRs to the subgrantees' accounting records along with other supporting documentation (e.g.
     invoices).
UK                                               -7-
&W
                                       Late Submission of FSRs

     AmeriCorps Provision 17 (a) (I) states "State Commissions and Parent Organizations are
     required to forward Financial Status Reports from programs and budgeted sites to the
     Corporation thirty days afier the close of every first and third calendar quarter following the
     award. Reports are due to the Corporation by October 31 and April 30 from all grantees."

     However, in our sample of 36 FSRs, our testing identified three instances where subgrantees
     did not submit their FSRs in accordance with Corporation guidelines.

     We recommend that the Board enforce current policies and procedures requiring the
     submission of FSRs in accordance with Corporation guidelines.

                         Inability to determine timeliness of receipt of FSRs

     The Board does not routinely date-stamp FSRs from subgrantees as they are received. Thus,
     the Board can not routinely verify if these documents are submitted timely in compliance
     with the grant agreement. As a result, subgrantee FSRs may not be submitted timely;
     however, the Board has no basis to verify the FSRs' receipt date.

     On October 1, 1999, the Board began using the Web Based Reporting System which
     electronically records the date subgrantees submit their FSRs to the Board. As a result, no
     recommendation is required at this time related to recording the date of the receipt of the
     FSRs.

                            The Board did not maintain all required FSRs.

     AmeriCorps Provision #17 states "Commissions and Parent Organizations are required to
     submit quarterly Financial Status Reports and three Progress Reports to the Corporation.
     Commissions and Parent Organizations must submit these reports by the following dates and
     include three copies along with the original". It continues to state "ArneriCorps State
     programs and most AmeriCorps National sites that receive subgrants must submit at least
     four Financial Status Reports to their respective Commission or Parent Organization. In
     general, if a site has a Corporation-approved budget then the submission of an FSR for that
     sitelsub-Grantee is required. Commissions/Parent Organizations are required to forward
     Financial Status Reports from programs and budgeted sites to the Corporation's Grants
     Office 30 days after the close of each calendar quarter. These reports should be forwarded to
     the Grants Office. Annual Financial Reports shall be submitted within 90 days of completion
     and will compare actual expenditures to budgeted amounts using the line item categories in
     the grant budget form."

     We identified two instances out of 36 tested where FSRs were not maintained in the Board
     subgrantee files. This lack of documentation precluded us from determining whether all
     subgrantees submitted required FSRs to the Wisconsin Board in accordance with Corporation
     guidelines.
UK                                                -8-
&W
We recommend that the Board maintain copies of, and support for, all FSRs it submits to the
Corporation and maintain appropriate copies of subgrantee FSRs and supporting information.

Evaluation and Monitoring of Subgrantees

As discussed above, the Board is responsible for evaluating whether subgrantees comply with
legal, reporting, financial management and grant requirements and ensuring corrective action
when noncompliance is found.

The Board's ArneriCorps Program Officer monitors both program and fiscal activities for all
Amencorps funds. As discussed in the Overview, the Board subgrants all of the Learn and
Serve funds to the Cooperative Educational Service Agency. Districts No. 2 and No. 4
allocate funds to districts and act as oversight, perform site visits and monitor both program
and fiscal activities to those districts. Since Learn and Serve funds represent less than ten
percent of the total awards received, the Board monitors CESA through oral discussion to
ensure the adequacy of their monitoring procedures. In response to our pre-audit survey
discussions involving the maintenance of documentation, the Board has established a
procedure to maintain documentation to support these oral discussions.

We identified the following areas for improvement related to the evaluation and monitoring
of subgrantees.

             The evaluating and monitoring system for subgrantees needs to be
                                 improved at the Board.

According to OMB Circular No. A-1 33, Audit of States, Local Governments, and Non-Profit
Organizations, as amended, Subpart D tj 400 (d)(3) pass through entities are required to
"Monitor the activities of subrecipients as necessary to ensure that Federal awards are used
for authorized purposes in compliance with laws, regulations, and the provisions of contracts
or grant agreements and that performance goals are achieved."

During our review of documentation supporting site visits performed on two subgrantees,
during the 1995 through 1998 program years, we determined that certain documentation was
not consistently maintained. Specifically, the Commission was unable to provide
documentation to support the following for one subgrantee selected for testing:

   Site visits performed during the 1995 and 1997 program years;
   Feedback reports and responses received from the subgrantee during the 1995 and 1997
   program years; and
   Progress reports submitted during the 1995 program year.

Therefore we were unable to reperform or otherwise review the monitoring procedures
performed by Wisconsin Board personnel during the 1995 and 1997 program years related to
one subgrantee selected for testing.
We recommend that the Commission enforce current policies and procedures to require that
specific information be included in the documentation for site visits (for example, site visit
reports, feedback reports and responses received from subgrantees). This will allow the
Corporation to assess the Board oversight of subgrantees when it performs its planned
Commission administrative reviews.

In addition, we recommend that the Corporation for National and Community Service revise
its guidance to specify minimum procedures to be performed, as well as minimum
documentation requirements.

           Lack of documentation of review of OMB Circular A-133 Reports or
                         other audit reports from subgrantees

As discussed in the previous finding, OMB Circular No. A-133, Audit of States, Local
Governments, and Non-Profit Organizations, as amended, Subpart D 8 400 (d)(3) re.quires
that pass through entities "Monitor the activities of subrecipients as necessary to ensure that
Federal awards are used for authorized purposes in compliance with laws, regulations, and
the provisions of contracts or grant agreements and that performance goals are achieved." In
addition, 9 400(d)(4) requires that pass through entities "ensure that subrecipients expending
$300,000 or more in Federal awards during the subrecipient's fiscal year have met the audit
requirements of this part for that fiscal year."

As discussed in the Overview Section, the Board does not maintain documentation
supporting subgrantee A-133 audit reports. Instead the Board relies on the State of
Wisconsin's Department of Administration to review and follow up on subgrantee A-133
audit reports. Therefore, we were unable to determine if the Board routinely reviews these
reports to determine if auditors have identified control weaknesses or instances of
noncompliance related to Corporation hnded programs.

Moreover, in its failure to review and consider audit results, the Board ignores information
helpfbl in carrying out its oversight and monitoring responsibilities. Therefore, we
recommend the Board establish policies and procedures requiring its staff determine which
subgrantees fall under the audit requirements and follow up to determine that audits were
performed, and findings, if any, resolved.
Providing Technical Assistance

Annually, the Board receives grant funds to provide technical assistance to its subgrantees.
Procedures are in place at the Board to (1) identify training needs of subgrantees through
periodic staff meetings with the program directors and a needs assessment survey; (2) notify
subgrantees of training programs; and (3) provide needed training to subgrantees. We
identified no significant areas for improvement within this process.



This report is intended solely for the information and use of the Office of the Inspector
General, management of the Corporation for National and Community Service, the
Wisconsin National and Community Service Board, and the United States Congress, and is
not intended to be and should not be used by anyone other than these specified parties.




Washington, DC
December 8,1999
APPENDIX A           -      WISCONSIN BOARD FUNDING




                                                   CORPORATION FOR NATIONAL SERVICE
                                               FUNDING TO THE WISCONSIN STATE COMMISSION
                                                                  1995


                    A
             AMERIC~RPS
              FORMULA
               FUNDS
                                          1
                                          AMERICORPS
                                          COMPETITIVE
                                            FUNDS '
                                                          1
                                                               2
                                                               L8S
                                                                     FUNDS:
                                                                    $129,600
                                                                                         PDAT
                                                                                        FUNDS:
                                                                                        $65,000
                                                                                                     L
                                                                                                     ADMINISTRATION
                                                                                                        FUNDS."
                                                                                                        $279,176


                MATCH                                                MATCH.              NO             MATCH.
                                                                    $216,306            MATCH           $69.038




                                                                        f                 1
                                              TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                               $1,472,668



                                      -
                                                                        t
                                                       FUNDS AWARDED TO SUBGRANTEES
                                                                 $1,128,492




                                                                   AMERICORPS
                                                                  COMPETITIVE '
                                                                       $0

                                            MATCH                     MATCH                MATCH
                                           $628,371                      $0               $216,306

                                          TOTAL # OF                TOTAL # OF          TOTAL # OF
                                            SUBS-                     SUBS                SUBS
                                              7                         0                  17

                                          TOTAL # OF                TOTAL # OF          TOTAL # OF
                                            SITES:                    SITES.              SITES
                                               7                        0                   16




  Total Carryovers for 1995 (Not Included In the current year funding amounts above).

  Administration.       $   124,885
  Amer~Corps-           $
  PDAT-                 $
  LBS-                  $    32,400

   ^
       There were no funds rece~vedfor th~syear
   "   D~sabil~ty
               funds included In grant award.
APPENDIX A - WISCONSIN BOARD FUNDING




                                                            CORPORATION FOR NATIONAL SERVICE
                                                        FUNDING TO THE WISCONSIN STATE COMMISSION
                                                                           1996
  I


                  1
            AMERICORPS
                                              1
                                         AMERICORPS
                                                                          1
                                                                        L6S                     PDAT
                                                                                                    1                  1
                                                                                                                 ADMINISTRATION
             FORMULA                     COMPETITIVE                   FUNDS:                  FUNDS'               FUNDS "
              FUNDS.                       FUNDS.                      $142,379                $90,000              $160.085
             51,242,274                    $431.220

               MATCH-                        MATCH:                    MATCH:                   NO                  MATCH.
               $573,081                      $224,747                  $159,343                MATCH                $83.519




                                              1                           1
                                                        TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                                         $2 065,958




                                                              FUNDS AWARDED TO SUBGRANTEES
                                                                        $1.815.873




                                               FORMULA:                 COMPETITIVE                  $142,379
                                               $ l.242.274                $431.220

                                                 MATCH                     MATCH                     MATCH:
                                                $573,081                  $224,747                   $159.343

                                              TOTAL U OF                 TOTAL # OF                 TOTAL # OF
                                                SUBS:                      SUBS-                      SUBS-


                                              TOTAL # OF                 TOTAL U OF                 TOTAL t OF
                                                SITES                      SITES                      SITES
                                         I          7




  Total Carryovers for 1996 (Not included in the current year funding amounts above).

  Admintstration:         $    130.000
  AmeriCorps              $     20.214
  PDAT.                   S     35.074
  LLS                     $     14,621

      " Dlsabil'ity funds included in grant award
APPENDIX A           -    WISCONSIN BOARD FUNDING




   r

                                                    CORPORATION FOR NATIONAL SERVICE
                                                FUNDING TO THE WISCONSIN STATE COMMISSION
                                                                   1997



            AMERICORPS                   AMERICORPS
                                                                                        L
                                                                                        PDAT             ADMINISTRATION
                                         COMPETITIVE                  FUNDS:             FUNDS:             FUNDS."
                                           FUNDS                     $ 129,700           $15.222            $206,877
             $1,036,832                    $276,000

                                           MATCH.                     MATCH.              NO                MATCH
              $419,030                     $138,532                  $216,012            MATCH              $83,519




                                                 +                                         +
                                               TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                                $7,664,631




                                     I                 FUNDS AWARDED TO SUBGRANTEES
                                                                 $1,442,532
                                                                                                     I
                                         A
                                         AMERICORPS
                                                               A
                                                               AMERICORPS
                                                                                        $.
                                                                                           L & S:
                                          FORMULA                 COMPETITIVE:           $129,700
                                          $1,036,832                $276,000

                                            MATCH:                    MATCH:              MATCH:
                                           $419,030                  $138,532            $216,012

                                          TOTAL # OF               TOTAL # OF           TOTAL # OF
                                            SUBS.                    SUBS.                SUBS.
                                              5                          1                 18

                                          TOTAL # OF               TOTAL # OF           TOTAL # OF
                                            SITES-                   SITES:               SITES:
                                              5                         1                   18




  Total Carryovers for 1997 (Not included in the current year funding amounts above).

  Administration.    $      56,000
  AmeriCorps.        $
  PDAT.              $    128,088
  L&S:               $     25,300

  " Disability funds Included In grant award
APPENDIX A           - WISCONSIN BOARD FUNDING




                                                  CORPORATION FOR NATIONAL SERVICE
                                              FUNDING TO THE WISCONSIN STATE COMMISSION
                                                                 1998



           AMERIC~RP~
                                                  1
                                          AMERICORPS            L&S
                                                                          1                     1
                                                                                              PDAT             ADMINISTRATION
            FORMULA                       COMPETITIVE                  FUNDS:                FUNDS                FUNDS."
             FUNDS,                         FUNDS '                  $141,500"'              $23,924              $194,571
            51,513,428                        $0

             MATCH                           MATCH                     MATCH.                  NO                    MATCH.
            $1,097,025                         $0                        $0                  MATCH                  $195,368
                                                                                            REQUIRED




                                            TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                             91,873,423




                                                     FUNDS AWARDED TO SUBGRANTEES
                                                               $1,654,928




                                                                    AMERICORPS
                                           FORMULA.                 COMPETITIVE
                                           $1,513,428                   $0

                                            MATCH.                     MATCH:           I     MATCH-
                                           $1,097,025




                                                                I
                                          TOTAL # OF
                                            SUBS:                      SUBS:
                                              6

                                          TOTAL # OF
                                            SITES:
                                               5
                                                                     TOTAL # OF
                                                                       SITES.
                                                                                        I   TOTAL # OF
                                                                                              SITES.
                                                                                                0.




  Total Carryovers for 1998 (Not included in the current year funding amounts above):

  Adrn~nlstratlon:   $
  ArnerCorps         $       84,875
  PDAT-              $      110,896
  L&S                0

    There were no funds received for this year
  " Dlsablllty funds included in grant award.
  '"Learn 8 Serve amount represents funds from 1997. A no cost extenson was awarded for the 1998 program year and the
    funds were used to renew the subgrantee from the prior year.
APPENDIX A            - WISCONSIN BOARD FUNDING




                                                    CORPORATION FOR NATIONAL SERVICE
                                                FUNDING TO THE WISCONSIN STATE COMMISSION
                                                                   1999


             1
       AMERICORPS
                                               1
                                         AMERICORPS
        FORMULA                          COMPETITIVE
         FUNDS                             FUNDS '                   $141.500            $38.640         $235,109
        $1,779,685                           $0

         MATCH                             MATCH-                     MATCH                               MATCH-
        $1,480,923                           $0                      $228.610            MATCH           $235.109
                                                                                        REQUIRED




                                                                        w
                                              TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION




                                     I                  FUNDS AWARDED TO SUBGRANTEES
                                                                  $1,921,185
                                                                                                     I
                                           FORMULA.                COMPETITIVE '         $141,500
                                                                       $0

                                            MATCH.                     MATCH             MATCH:
                                           $1,480,923                    $0              $228,610

                                           TOTAL # OF               TOTAL # OF          TOTAL # OF
                                             SUBS.                    SUBS                SUBS:
                                                7                       0                  12

                                           TOTAL # OF               TOTAL # OF          TOTAL # OF
                                             SITES                    SITES-              SITES:
                                                7                       0                   37




   Total Carryovers for 1999 (Not lncluded in the current year fundmg amounts above).

   Administration      $
   Amencorps           $      31,846
   PDAT                $      89,360
   L&S                 $

       There were no funds recetved for thts year
   "   Disability funds included in grant award.
APPENDIX B     - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY

Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the
preparation of reliable financial statements and Federal reports; (2) maintain accountability
over assets; and (3) demonstrate compliance with laws, regulations, and other compliance
requirements.

In order to achieve the above objectives, we interviewed key Commission personnel to
determine the adequacy of the Commission's internal controls surrounding the following to
ensure compliance with Part 6 of A-1 33, Internal Control of the Compliance Supplement to
OMB Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations:
overall control environment; activities allowed or unallowed and allowable costs; cash
management; eligibility; equipment and real property management; matching; period of
availability of Corporation funds; procurement and suspension, debarment; program income;
and reporting by the Commission to the Corporation.

Selection of Subgrantees

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission
       to select national service subgrantees to be included in any application to the
       Corporation;

       make a preliminary assessment as to whether the Commission evaluated the adequacy
       of potential subgrantee financial systems and controls in place to administer a Federal
       grant program prior to making the award to the subgrantees; and

       make a preliminary assessment as to whether the Commission's involvement in the
       application process involved any actual or apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
ensure that conflict of interest forms for each subgrantee applicant tested were signed by all
peer review members annually and maintained by the Commission.
APPENDIX B - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY


Administration of the Grant Funds

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission
       to oversee and monitor the performance and progress of funded subgrantees;

       make a preliminary assessment as to whether the Commission's organizational
       structure and staffing level and skill mix is conducive to effective grant
       administration and whether the commission has a properly constituted membership;

       make a preliminary assessment as to whether the Commission provided adequate
       guidance to subgrantees related to maintenance of financial systems, records,
       supporting documentation, and reporting of subgrantee activity;

       conduct a preliminary survey of financial systems and documentation maintained by
       the Commission to support oversight of subgrantees and required reporting to the
       Corporation (including Financial Status reports, enrollment and exit forms); and

       make a preliminary assessment as to what procedures the Commission has in place to
       verify the accuracy and timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports submitted by
subgrantees, as well as Financial Status Reports submitted by the Commission to the
Corporation, to determine the accuracy of submitted Financial Status Reports. We also
determined whether the Commission has implemented the Web Based Reporting System.

Evaluation and Monitoring of Subgrantees

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission,
       in conjunction with the Corporation, to implement a comprehensive, non-duplicative
       evaluation and monitoring process for their subgrantees;

       make a preliminary assessment as to whether the Commission has a subgrantee site
       visit program in place and assess the effectiveness of its design in achieving
       monitoring objectives;

       conduct a preliminary survey of the Commission's procedures used to assess
       subgrantee compliance with Corporation regulations (e.g., those governing eligibility
       of Members, service hour reporting, prohibited activities, payment of living
APPENDIX B     - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY

       allowances to Members and allowability of costs incurred and claimed under the
       grants by subgrantees (including reported match));

       conduct a preliminary survey of the Commission's procedures for obtaining,
       reviewing and following up on findings included in the subgrantee single audit
       reports, where applicable;

       determine whether program goals are established and results are accurately reported
       and compared to these goals; and

       conduct a preliminary survey of the procedures in place to evaluate whether
       subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We
reviewed the documentation to determine the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the
sites. We also determined whether the Commission received and reviewed A-133 audit
reports from subgrantees.

Providing Technical Assistance

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commissions
       to provide technical assistance to subgrantees and other entities in planning programs,
       applying for funds, and implementing and operating programs;

       make a preliminary assessment as to whether a process is in place to identify training
       and technical assistance needs; and

       make a preliminary assessment as to whether adequate training and technical
       assistance is provided to identified subgrantees.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to identify and satisfy training needs for the subgrantees and Commission
employees. We also obtained a summary of all training costs incurred during the current year
to ensure they properly related to training activities which were made available to all
subgrantees.
APPENDIX C - WISCONSIN BOARD RESPONSE




                      Wisconsin National and Community Service Board Response
                               To The Pre-Audit Survey Report For The
                           Corporation for National and Community Service
                                             May 31,2000


                                                  TABLE OF CONTENTS

       Wisconsin's Response

       A. Results in Brief.. .....................................................................................   ..I-3

       B. Overview of the Wisconsin Board..................................................................            .3

       C. Findings and Recommendations.. ................................................................             3-7

       D. Administration of Grant Funds..................................................................... 7-8


       Appendices

       Appendix A - Wisconsin Association for Runaways 1996 & 97 Audits
       Appendix A1 - Milwaukee Community Service Corps 1994-95 Cooperative Agreement
       Appendix A2 - Western Wisconsin Private Industry Council 1996-97 Cooperative
                     Agreement
                         -
       Appendix A3 City of Eau Claire 1996-97 Application Cover Letter
       ~bpendixA4 - ~ m e r i ~ oFox
                                  r ~ Valley
                                      s      ~ejecionLetter
       Appendix A5 - Memorandum Nathaniel E. Robinson

       Appendix B - Devine Letter to Prevost
       Appendix B1 - City of Eau Claire Quarterly Reports
       Appendix 82 - Western Wisconsin Private lndustry Council monitoring reports, quarterly
                     progress reports and Recommendation Summary.
       Appendix 83 - DOA procedures for A-133 Audit reviews
       Appendix 84 - WNCSB Updated Roster

       Appendix C l - 1995 Notice of Available Funds
                         -
       Aooendix C2 1998 Notice of Available Funds
                   i x - 1995 Conflict of Interest Forms
       ~ p ~ e n dC3
       Appendix C4 - 1997 Conflict of lnterest Forms

       Appendix D - 1999 AmeriCorps Spreadsheet
                         -
       Appendix D l WNCSB Monitoring Process and Tool
       Appendix D2 - WNCSB 2000 -01 Application Process

                         -
       Appendix E WNCSB Response to UK&Ws Exception Summary
       Appendix E l - UK&WsException Summary
APPENDIX C - WISCONSIN BOARD RESPONSE




                          Wisconsin National and Community Service Board
                                   Response to Pre-Audit Survey
                                           May 26,2000


     A.        RESULTS IN BRIEF

     The WNCSB strongly protests UK&W's recommendationto have a full audits conducted of the
     WNCSB's 1995 through 1998 grant years. This recommendationhas forced the WNCSB staff
     to search archived files for missing information and is based on the identification of nonmaterial
     exceptions. The WNCSB disputes the Results in Brief outlined on page one of the PreAudit
     Survey. This response will demonstrate and document the WNCSB administrative functions.

          The Board appears to have an open and competitive process to select national service
          subgrantees, and related systems and controls appear to be functioning as designed.
          However, we identified an area of improvement related to the lack of assessment of
          subgrantee applicants' financial systems during the selection process.

     Since the pre-audit survey the WNCSB staff has located additional supporting documentation
     related to the sample areas covered by UK&W. UK&W identified six exceptions related to the
     'lack of assessment of the financial systems during the selection process."

     Exceptions Summary: Selecting Subgrantees: E-1

     Sample Number 1: Wisconsin Association for Runaways 1996 and 1997 Audits were secured
                      and reviewed by WNCSB staff (Appendix A).
     Sample Number 2: Milwaukee Community Service Corps 1994-95 Cooperative Agreement
                      demonstrates experience with subgrantee financial systems (Appendix Al).
     Sample Number 3: Western Wis. Private Industry Council 1996-97 Cooperative Agreement
                      demonstrates renewal or continuation program within a three year funding
                      cycle (Appendix A2).
     Sample Number 4: City of Eau Claire 1996-97 L&S Application Cover Letter for the 1996-97
                      application clearly states that the application is for a third year of funding
                      (Appendix A3).
     Sample Number 5: AmeriCorps Fox Valley rejection letter documents that the financial systems
                      do not need to be reviewed (Appendix A4).
     Sample Number 6: Wisconsin Association of Lakes was identified as a rejected program and no
                      financial systems assessment was required.

     The WNCSB disputes all six of the exceptions identified as 'no specific reference to the
     condition of the financial systems of subgrantee" by UK&W and provides documentation to
     support the WNCSB's position in Appendices A through A5. Please pay particular attention to
     the memorandum from Nathaniel E. Robinson (Appendix AS) to Charles McDowell in regard to
     the A-133 audit review process utilized by the WNCSB. Walker and Company, a Washington,
           -
     D.C. based CPA firm and consultant for the CNS. and two CNS representatives felt the
     WNCSB's A-1 33 audit review was a "best practice".

          The Board appears to have an adequate process in place for fiscal administration of grants.
          However, we identified an area of improvement related to the review of Financial Status
          Reports and recalculation of matching amounts.
APPENDIX C - WISCONSIN BOARD RESPONSE




     The WNCSB was sited for having three late FSRs from subgrantees and two FSRs that covered
     two reporting periods. UKBW correctly identified these items. It is important to recognize that
     the turn around time on FSRs is very tight for subgrantees to report to the WNCSB and the
     WNCSB to report to the CNS. It is also important to recognize that the WNCSB has
     incorporatedthe due dates for Progress Reports and Financial Status Reports into the
     subgrantee contracts since 1998. The WNCSB has developed a spreadsheet to track invoiced
     amounts by subgrantee, CNS expenses, match expenses and budget categories to fortify the
     FSR review process. A second step to ensure accuracy has been the reconciliation of the
     WNCSB spreadsheet with the DOA accounting system on a quarterly basis. The attached
     WNCSB AmeriCorps spreadsheet (Appendix D) for 1999 demonstrates that the new WNCSB
     staff complete a thorough review of invoiced expenses and utilize the spreadsheet to reconcile
     expenditures for Financial Status Reporting. This tracking system demonstrates the WNCSB's
     fiscal administration of grants. When DOA's accounting system is teamed with the WNCSB's
     fiscal tracking process, it is clear that Wisconsin effectively manages the CNS grants.

     It is clear that three FSRs were late, that two FSRs covered two reporting periods and that two
     FSRs incorrectly carried amounts forward, but these nonmaterial exceptions do not justify the
     recommendation of a full audit. In 1998, the WNCSB changed staff and developed effective
     systems to monitor Financial Status Reports. Each of the exceptions identified precedes the
     WNCSB's existing personnel and reporting processes. UKBW recognized that the new Web
     Based Reporting System fortifies the FSR review and tracking process. The timeliness and
     accuracy of FSRs is already a part of the WNCSB's monitoring process. It is important to
     recognize that FSRs and subgrantee payments directly connect to purchase requisitions.
     purchase orders and invoices before payments are made to subgrantees. These internal
     controls provide reasonable assurances that subgrantees are correctly reporting amounts on
     FSRs.

        The Board does not have adequate controls in place to evaluate and monitor subgrantees.

     The WNCSB disputes UKBWs conclusions related to evaluating and monitoring subgrantees. A
     review of the UKBW Exce~tionSummarv will identifv two items related to these administrative
     functions (Selecting subg;antees. E-1 sample numder 3 and 4).

     Sample Number 3: Western Wis. Private Industry Council's two monitoring reports, two
                      quarterly progress reports and the WNCSB RecommendationSummary are
                      included to document that the WNCSB does evaluate and monitor
                      subgrantees effectively. (Appendix 82).

     UKBW states that the renewal application package did not include quarterly Progress Reports
     or site visit reports. The WNCSB has attached the two monitoring reports or site visit reports
     (1123196 and 8123196) and two quarterly reports completed by the WNCSB staff for this
     subgrantee. It is important to recognize that the monitoring report and Progress Reports that
     staff completed and reviewed were retained in the 1996-97 program file and not in the 1997-98
     program file. The WNCSB has also included the present monitoring tool being utilized by the
     existing staff (Appendix Dl). It easy to identlfy that this monitoring tool is comprehensive and
     inclusive of the evaluation criterion required and necessary to review subgrantee performance.

     Sample Number 4: Two of City of Eau Claire's 1996-97 quarterly Progress Reports are included
                      to document that the WNCSB does evaluate and monitor subgrantees
                      effectively (Appendix Bl).
APPENDIX C - WISCONSIN BOARD RESPONSE




     UK&W states that the renewal application package did not include quarterly Progress Reports
     or site visit reports. The WNCSB has attached the monitoring report completed by the WNCSB
     staff for this subgrantee. It is important to recognize that the monitoring report that staff
     completed and reviewed was filed in the 1996-97 program file and not in the 1997-98 program
     file. This was an $8,000 mini-grant to a Learn and Serve - CBO program. Two quarterly
     Progress Reports have been included in Appendix B1 and these document a reasonable
     evaluation process of a mini-grant.

     This documentation should resolve the issued identified bv UKLW related to the WNCSB's
     evaluation and monitoring of subgrantees. UK&W recognked and accepted the Cooperative
     Education Service Area oversight of the Learn and Serve - CBO program in Wisconsin (page 9
     of the report). If this information does not resolve this issue, isc con& expects that UKBW-W~II
     provide a more specific request for information to allow the WNCSB to cure the situation.
     Again, the identified issue precedes the existing WNCSB staff, and the new systems and
     practices utilized to evaluate and monitor are effective management tools (Appendix D and Dl).

           The Board appears to have adequate controls in place to provide reasonable assurance that
           training and technical assistance are made available and provided to subgrantees.

      The WNCSB accepts the UK&W response to training and technical assistance performance in
      Wisconsin.

      B.      OVERVIEW OF THE WISCONSIN BOARD

      The WNCSB disputes the chart provided by UKBW on page 3 of the report. The WNCSB staff
      clearly understands the threshold requirements for A-133 audits and clearly recognizes that all
      WNCSB subgrantees (except W~sconsinAssociation for Runaways) in 1998 met the minimum
      standards requiring A-133 audits. UK&W auditors were directed to the DOA accounting staff to
      verify the A-133 audit review process and the list of subgrantees required to provide A-133
      audits. The WNCSB staff did not have firsthand knowledge of the subgrantees required to
      provide A-1 33 audits prior to the employment of the existing WNCSB personnel in 1998.
      Fortunately, the WNCSB had the DOA accounting systems and personnel, including A-133
      audit reviews, to document the procedures and history of A-133 audit reviews in Wisconsin for
      the WNCSB. Again, Walker and Company has identified DOA's A-133 audit review process as
      a 'best practice". Please refer to the WNCSB's response in Section D and DOA A-133 tracking
      procedures, sample A-133 audit request letter and A-133 audit review form (Appendix 83). This
      information was sent to Katy Healy, UKBW on March 14,2000.
APPENDIX C    -   WISCONSIN BOARD RESPONSE




     Program Year        bs Subgranted        # of Programs     Required        Small
                                                                A-133 Audits    Grants




                         '12 CESAs            "Learn and Serve are Mini-grants

     The WNCSB apologies for the confusion created by the submission of the incomplete Grant
     Rosters prior to the pre-audit survey fieldwork of UK&W. It is understandablethat UKdW
     calculated the A-133 information in the chart from what was provided on the roster. WNCSB
     staff was under the impression that the UK&W personnel processed the A-133 review methods
     and the requirements of subgrantees to submit A-133 audits related to the roster with DOA. In
     recognition of this oversight, an updated Grants Roster has been attached as Appendix 84.
     You will clearly identify that The WNCSB and DOA have followed the process outlined in
     Appendix 83 and the A-1 33 audits have been reviewed and documented. Other financial
     records and audits are also reviewed by DOA for subgrantees. If UK&W requires additional
     information, the WNCSB reserves that right to cure these issues identified in the pre-audit
     survey.

     C.     FINDINGS AND RECOMMENDATIONS

     1. Selection of Subgrantees

     The WNCSB was unable to provide the documentation to UK&W related to the advertising of
     the availability of funds. Upon further review of the older files, the WNCSB has since captured
     the required documentation requested by UKBW. This new documentation should eliminate the
     need to include this section in the pre-audit survey recommendations.

     Exceptions Summary: Selecting Subgrantees: E-1

     Sample Number 1: Wisconsin Association for Runaways, Advertisement for the availability of
                      funds is included in Appendix C1.

     Sample Number 2: Milwaukee Community Service Corps, Signature page of the 1994-95
                      Agreement and notice of funding is included in Appendix C2. This was a
                      national competitive process and the WNCSB limits applicants to the
                      existing AmeriCorps programs. In this case a mailing was sent to all existing
                      AmeriCorps programs.

     2. The Board did not maintain signed conflict of interest forms as required.

     UK&W identified three samples relating to conflict of interest (Exception Summary, Selecting
     Subgrantees. E-1 Sample Numbers 2, 3 and 5.

     Sample Number 2: Conflict of interest forms are attached for the199596 review process in
                      Appendix C3.
APPENDIX C - WISCONSIN BOARD RESPONSE




     Sample Number 3: The WNCSB disputes the identification of Sample Number 3 due to the fact
                      that UKLW appropriately identified the applicant as a renewaVcontinuation
                      program. This applicant applied for the final year of a three-year funding
                      cycle. A renewallcontinuation program application does not require a peer
                      review so no conflict of interest statement was necessary or required.
                      Please refer to Appendix A3.

     Sample Number 5: The WNCSB was able to locate the conflict of interest forms for the review
                      process for 1997-98 and the Conflict of interest forms are attached as
                      Appendix C2.

     These records should demonstrate that appropriate application processes are in place in
     Wisconsin. Please recognize that the WNCSB had continuous staff turnover and this caused
     the development of several separate and different filing systems. This situation combined with
     the relocation of the WNCSB into three different state departments has created problems with
     historic record retrieval, except for the financial management systems retained by DOA. Extra
     efforts searching stored files boxes has produced the conflict of interest forms. This
     documentation provides evidence that the WNCSB does provide an open and competitive
     process.

     3. Some documentation to support grant-making decisions was missing.

     Since UKBW's completed the field work in Wisconsin. the WNCSB staff have located and are
     providing documentation to cure three of the issues stemming from missing documentation.

     4 Two instances where rejection letters were not maintained by the Board.

         Selecting Grantees, E-2:

         Sample Number 5: The AmeriCorps Fox Valley rejection letter is attached to this response
               to the pre-audit survey (Appendix A4).

         Sample Number 6: The second rejection letter for the Wisconsin Association of Lakes has
               not been located by the WNCSB.

     J   Two instances where renewal packages did not include documentation supporting site visits
         or progress reports.

         Selecting Grantees, E-1:

         Sample Number 3: Western Wis. Private Industry Council's 1996 site visit or monitoring
                          reports are included in Appendix 82.

         Sample Number 4: City of Eau Claire's two 1996 L8S Quarterly Progress Reports are
                          included in Appendix B1.

         The site visit or monitoring reports andlor progress reports for both of the sampled files are
         attached to this response to the pre-audit survey. Please recognize that these reports were
         retained in the program file of the year that they were completed and that WNCSB staff
         reviewed the performance prior to recommending funding.
APPENDIX C     -   WISCONSIN BOARD RESPONSE




     4. Lack of assessment of applications' financial systems during the selection process.

     Each of the exceptions identified by UKBW, related to subgrantee financial system review, have
     been disputed in Sections A and D of Wisconsin's response to the Pre-Audit Survey Report or
     IGA Audit Report Number 00-29.In review of this information the WNCSB deputes the
     recommendations reached by UKBW. The WNCSB utilizes the more experienced DOA
     professional accounting staff to enhance the effectiveness of the subgrantee financial system
     review process. UKBW's position requiring the WNCSB staff to review the A-133 audit is
     unreasonable and unacceptable. The WNCSB has followed state procedures and practices in
     regard to the A-133 audit review process. CNS staff and two CNS national consultants
     recognized Wisconsin's A-133 audit review process as a national best practice. A review of the
     information detailed in Appendices A, A5 and 83 should demonstrate that W~sconsinhas
     continued to utilize effective methods of assessing subgrantee financial systems.

     UKLW identified six cases that the auditors felt the WNCSB lacked a responsible review of the
     condition of subgrantee financial systems. The examination of those situations demonstrates
     that UKLW personnel did not understand the concept of renewal and continuation programs in
     the three-year funding cycle used by the CNS. Funding records (WNCSB Pre-audit Roster) for
     three of the identified exceptions (Samples 2, 3 and 4) demonstrate that the WNCSB has a
     history with these subgrantees. UKBW clearly identifies Samples 5 and 6 as rejected applicants
     and then finds that the WNCSB has not reviewed the financial systems of these rejected
     applicants.

     UKBW recommends that the WNCSB staff review the financial systems of all applicants that
     apply for funding regardless of the results of the application review process. The two
     exceptions identified by UKBW as rejected applicants were recommended by UKBW to have a
     condition of financial systems reviews performed by the WNCSB. The costs of performing a
     financial system review of every applicant that is rejected is cost prohibitive and outside the
     scope of the WNCSB's responsibilities.

     All of the six exceptions identified by UKLW i n regard to the WNCSB's review of the
     condition of the financial system of the subgrantee are disputed by the facts presented in
     this response to UK8W's Pre-Audit Survey Report. UKBW's conclusions are unfounded
     and cost prohibitive in regard to their distrust of Wisconsin's A-133 audit review process
     and their recommendation that rejected applicants must have financial systems reviews.
     The WNCSB has fulfilled its responsibility to assure that subgrantee's financial systems
     are i n place to operate CNS funded services i n each of the six UK&W identified
     exceptions.

     D.     Administration of Grant Funds

     1. Lack of Evidence of Financial Status Report review, including match recalculations.

     The WNCSB was sited for having three late FSRs from subgrantees and two FSRs that covered
     two reporting periods. UKBW correctly identified these items. It is important to recognize that
     the turn around time on FSRs is very tight for subgrantees to report to the WNCSB and the
     WNCSB to report to the CNS. Due to the timeline restrictions, state commissions face two
     difficult situations. First, if a subgrantee's FSR is incorrect there is very little time to correct the
     discrepancies and submit the FSR on time. Second, if the FSR is turned in on time but with
     incorrect amounts the WNCSB is forced to perform outside the CNS guidelines. Both of these
APPENDIX C      -   WISCONSIN BOARD RESPONSE




     options are identified as exceptions. These situations are correctable within reasonable
     accounting practices and retain the credibility of the accounting system.

     It is also important to recognize that the WNCSB has incorporated the due dates for Progress
     Reports and Financial Status Reports in the subgrantee contracts since 1998. The WNCSB has
     developed a spreadsheet to track invoiced amounts by subgrantee, CNS expenses, match
     expenses and budget categories to fortify the FSR review process (Appendix D). A second step
     to ensure accuracy has been the reconciliationof the WNCSB spreadsheet with the DOA
     accounting system on a quarterly basis. The attached spreadsheet (Appendix D) for 1999
     demonstrates that the new WNCSB staff completes a thorough review of invoiced expenses
     and utilizes the spreadsheet to reconcile expenditures for Financial Status Reporting. It is
     important to recognize the present practices utilized to review FSRs and accept that the CNS
     has implemented a Web Based Reporting System.

     2. Inability to determine timeliness of receipt of FSRs

     UK&W recognized that this issue has been corrected by the CNS's implementation of a Web
     Based Reporting System. All FSR reports are automatically recorded by the dates the report is
     completed and approved by subgrantees. It is important to recognize that the reporting process
     has changed several times since the inception of this program. UKBW stated that no
     recommendation is required at this time related to recording the date of the receipt of the FSRs.
     The WNCSB concurs with this recommendation. The existing WNCSB staff has maintained
     practices that address the identified concerns since May 1998.

     3. Two subgrantees submitted FSRs that covered two quarters

     The WNCSB did not have two of the thirty-six FSRs tested due to the subgrantees submitting
     FSRs for two periods. Again, this occurred prior to the existing staff and new procedures and
     practices have enhanced the performance of the subgrantees in regards to submitting FSRs.
     Prior conditions do not adequately reflect current practices. WNCSB staff reviews and tracks
     the timeliness of FSRs. The WNCSB will be implementing performance standards related to
     timely reporting for 2000-01 programs starting in August of 2000.

     Please, recognize that UK&W cites several sections from 'A Reference Manual for Commission
     Executive Directors and Members". This manual is not an official document of the United States
     Government. This manual does not provide official guidance regarding compliance to federal
     regulations. UKBW can not identify exceptions and rename them findings and then cite or
     reference this handbook as if it were a Federal Regulation or a Grant Provision. The handbook
     is non-binding for audit purposes.

     E.      The Evaluation and Monitoring Systems for subgrantees needs to be improved at
             the Board.

     Selecting Subgrantees: E-1, Inadequate or Incomplete Supporting Documentation

          Sample Number 3: Western Wis. Private Industry Council 1996 site visit or monitoring
                           reports are included in Appendix 82.

          Sample Number 4: City of Eau Claire four 1996 LBS Quarterly Reports are included in
                           Appendix B1.
APPENDIX C     - WISCONSIN BOARD RESPONSE




     The Western Wisconsin Private Industry Council's missing monitoring reports were located in
     the 1996 program file and have been attached as Appendix B2. The City of Eau Claire was a
     Learn and Serve - CBO subgrantee; this was a mini-grant of $8,000. The quarterly Progress
     Reports have been attached in Appendix B1. The addition of this information should cure the
     nonmaterial findings in this section of the pre-audit survey. It is also important to recognize that
     accounting procedures must be reasonable and the recommended reporting requirements may
     not be reasonable for an $8,000 mini-grant.

     The present practices employed by the WNCSB to monitor and evaluate subgrantees were not
     reflected in this pre-audit survey report. An outline of the monitoring process and a w p y of the
     present monitoring tool utilized to perform site visits evaluations1monitoring site visits has been
     attached for your consideration of the WNCSB's evaluation of subgrantees (Appendix Dl). A
     copy of the WNCSB request for proposal process has also been attached to the response to the
     pre-audit..survey to demonstrate the present methods utilized to select subgrantees (Appendix
     D2). It is anticipated that UK&W will review this information and that the recommendations will
     reflect the current practices utilized in Wisconsin to address the continuous improvement of the
     WNCSB. In all non-material issue areas UK&W has a responsibility to recognize present
     practice and present the methods utilized in Wisconsin.

     It is also important to recognize that the WNCSB has relocated several times and that the staff
     was completely replaced in 1998. The existing WNCSB staff did not have time to reprocess
     historic operations but rather focused on the development of systems for the future. Past staff
     turnover caused the WNCSB records to be stored in several different file systems and this made
     material retrieval difficult. The additional material included in this response documents that the
     WNCSB has the administrative systems in place to oversee the CNS funding.

     The WNCSB has provided documentation that resolves most of the exceptions identified by
     UKBW. The spreadsheet (Appendix E) details the WNCSB's response to the draft pre-audit
     survey and corresponds to the Exception Summary provided by UK&W. The UK&W Exception
     Summary is included in Appendix E l . The final information is the correspondence from Thomas
     H. Devine, Executive Director, to Jennifer Prevost and dated January 19,2000.

     This information justifies reconsideration of the recommendations provided by UKBW. The
     recommendationsmust be in relationship to the exceptions remaining and these exceptions
     must be placed in the context of Dresent ~racticesand methods. UK&W has not identified anv
     material findings and the WNCSB will beSparticipatingin the State Commissions~dministrativk
     Review process during 2000. The costs of the pre-audit survey recommendations are
     excessive for the type of exceptions identifed by UK&W. Also remember the CNS has visited
     Wisconsin in 1997 and 1999 to review the WNCSB's financial systems. The results of those
     visits do not support the UKLW recommendations of full audits for 1995 through 1998.
APPENDIX D         - CORPORA TfON RESPONSE


                                                                  CORPORATION
                                                                  FOR N A T I O N A L
          MEMORANDUM                                              Q S E R V I C E


          TO:                   Luise S. Jordjln                     L


          THRU:                 h     t    h     o      n     y     d     e

          FROM:
                                Bruce H. Cline

          DATE:                  May 12,2000

          SUBJECT:              Response to the Draft Audit Report 00-29 Pre-Audit Survey of the
                                Wisconsin National and Community Service Board


          We have reviewed the draft report on your pre-audit survey of the Wisconsin National
          and Community Service Board. Given the nature of the report, this response serves as
          our proposed management decision. We note that your preliminary assessment
          recommend a full-scope financial audit at the Wisconsin Board for 1995 through the
          current program year.-~hedraft audit report includes a recommendation to the
          Corporation. We are providing the following response to that recommendation. The
          Inspector General recommended:

                    "Additionally, we (the Inspector General) recommend that the Corporation follow
                    up with the Wisconsin Board to determine that appropriate corrective actions are
                    put into place to address the conditions reported herein, and that the Corporation
                    consider these conditions in its oversight and monitoring of the Wisconsin
                    Board."

           Some of the conditions cited in the "results in brief' section of the report include
           concerns related to the lack of assessment of subgrantee applicants' financial systems
           during the selection process. It was also noted that the Board does not have adequate
           controls in place to evaluate and monitor subgrantees.

           Given our limited program administration resources, we developed a plan to assess State
           Commission administration functions. Over a three-year period, we will be reviewing
           each of the state commissions. As part of our follow-up with Wisconsin, we will
           determine whether the Board has put appropriate corrective actions in place for
           conditions noted in the pre-audit survey that your ofice has issued.

           In addition to this scheduled review, we will also request that the Wisconsin Board
           provide semi-annual reports on their actions to correct conditions cited in the OIG pre-
           audit survey.




    NATIONAL SERVICE: GETTING THINGS DONE                                         1201 New York Avenue, N.W. Waslungton, D.C. 20525
    Amencaps   h r n u n d S m A"ca       National Senior S m ' n c o p           telephone; 202-606-5000 website: xrmahnalsemin.org
APPENDIX E    - UK W'S EVAL UA TION OF                                THE WISCONSIN BOARD'S RESPONSE




  UK Urbach Kahn & Werlin                     PC
      CERTIFIED PUBLIC ACCOUNTANTS




        Inspector General
        Corporation for National Service

        RE:    Wisconsin National and Community Service Board's Response to Pre-Audit
               Survey Report


        We have reviewed the Wisconsin Board's response to the Pre-Audit Survey Report.
        While the Board has recently implemented procedures to resolve certain issues raised in
        this report, UKW was engaged to review and report on the procedures and controls in
        place during the 1995 through 1998 program years. Therefore, this letler summarizes
        their response as well as our responses to their comments.

        Page 1, Sample 1:      While the Board provided UKW with a copy of a subgrantee's A-
                               133 audit report, there is no documentation to support that the
                               Board actually reviewed the report. As seen at other
                               Commissions, we suggest the Board establish a form to document
                               review of A-133 audit reports. along with findings and corrective
                               actions taken (if applicable). Therefore, UKW does not believe any
                               changes should be made to the report at this time.

        Page 1, Sample 3:      UKW believes that Commissions should review financial systems
                               for all applicants in the selection process, including renewal
                               applicants, since financial systems can change from one year to
                               the next. Therefore. UKW does not believe any changes should
                               be made to the report at this time.

        Page 1, Sample 4:      Same comment as sample 3 discussed above

        Page 1. Sample 5:      UKW agrees that the Board should not review financial systems if
                               the Board knows that the applicant is to be rejected. UKW has
                               revised the report to specifically state "for approved applicants".

        Page 1. Sample 6:      Same comment as sample 5 discussed above.

        In order to resolve this issue, UKW recommends that the Board revise it current ranking
        forms to include a section on applicants' financial systems to document that the Board
        considered these systems in the selection process.

        Page 2, Sample 3:      This appears to be a misunderstanding by the Board. Our
                               exception was not that the Board did not obtain monitoring or
                               quarterly progress reports. Our exception related to the fact that
                               there was no documentation to show whether or not the Board
                               reviewed these reports during the renewal process.

        Page 2, Sample 4:      Same comment as sample 3 discussed above.



                     1030 Fiftcenrh Smcr NW,Washington.DC 2OOO5 (202)296-2020FAX (202)223-8488
                                  An lndcpcndcnt Mrrnbcr d Urbrh H x k r r Ywnl lnrcrnarnonal
APPENDIX E   - UKW'S EVALUATION OF THE WISCONSIN BOARD'S RESPONSE




        Page 3:              UKW has updated the overview section of the report for the
                             additional A-133 information related to subgrantees obtained from
                             the Board on May 26".

        Selection of Subgrantees

        Page 4. Sample 1:    lncluded in the package received from the Board on May 26Ih was
                             documentation supporting the advertisement of funds. Therefore,
                             UKW has resolved this exception and revised the report
                             accordingly.

        Page 4, Sample 2:    Same comment as sample 1 discussed above

        Missing Signed Conflict of Interest Forms

        Page 4, Sample 2:    Included in the package received from the Board on May 26thwas
                             signed and dated conflict of interest forms. Therefore. UKW has
                             resolved this exception and revised the report accordingly.

        Page 5, Sample 3:    UKW disagrees with the Board's response. Board members
                             should sign conflict of interest forms for all applicants, including
                             renewals since affiliations may change from one year to the next
                             and conflicts may occur and remain undetected. Therefore, UKW
                             does not believe any revisions should be made to the report.

        Page 5,Sample 5:     Same comment as sample 2 discussed above.

        Some documentation to support grant-making decisions was missing

        Page 5, Sample 5:    Included in the package received from the Board on May 26" was
                             a copy of the rejection letter. Therefore, UKW has resolved this
                             exception and revised the report accordingly.

        Renewal package did not include documentation supporting site visits or progress
        reports

        Page 5, Sample 3:    This appears to be a misunderstanding by the Board. UKW's
                             issue related to the fact that there was no documentation to show
                             whether the Board reviewed renewal applicants' site visit or
                             quarterly progress reports during the renewal process.

        Page 5, Sample 4:    Same comment as sample 3 discussed above

        Page 6:              UKW believes that all State Commissions should review
                             applicants' financial systems during the selection process to
                             ensure applicants have adequate financial systems in place to
                             accurately track expenditures and ensure compliance with related
                             requirements. Therefore, we recommend that the Board revise its
                             current ranking form to include a section of evaluation of financial
                             systems
APPENDIX E   - UKW's EVALUATION OF THE WISCONSIN BOARD'S RESPONSE




        Page 7, Sample 3:   UKW agrees that the current wording in the report appears
                            misleading. U K W has revised report to state that documentation
                            could not be provided for one subgrantee--The Milwaukee
                            Service Center
